                                  The Library of Congress
 
 
                           
                                   Office of the Inspector General 
 
 
 
 

 
 
 
 
 
 
 
 
                                         Integrated Support Services

                               
 
                                              Facilities Design & Construction 
 
                                          Faces Challenges in Providing Service
                               
                               
 
                                                    Audit Report No. 2006‐PA‐107
                                                                  September 2007
                               




                                      
                UNITED STATES GOVERNMENT                         LIBRARY OF CONGRESS
           ",emor;lndum 	                                        ODce of the Inspector General




TO: 	           James EL Billington                                           September 20,2007
                Lib&     of Congress

FROM: 	         Karl W. Schomagel
                Inspector General

SUBJECT: 	 Facilities Design &Construction
                Faces Challenges in Providing Service     I
                Audit Repon No. 2006-PA-107


This transmits our final audit report on the Library's Facility Design and Construction
Office (FD&C), a unit of Facility Services, under the direction of Integrated Support
Services. The Executive Summary begins on page i and complete findings and
recommendations appear on pages 4 to 17.

Integrated Support Services (ISS) response to our draft report is briefly summarized in
the Executive Summary and in more detail after individual recommendations appearing
on pages 8,11,13,14,16, and 17. The complete response is included as Appendix B.

Based on ISS' response to the draft report, we consider all of the recommendations
resolved except for V.2. Please provide within 30 calendar days, an action plan
addressing implementation of recommendation V.2 including implementation dates, in
accordance with LCR 211-6, Section ll.A.

We appreciate the cooperation and courtesies extended by the ISS Director, Facility 

Services Chief, and the FD&C management and staff during the audit. 



cc:    Chief Operating Officer
AUDIT REPORT NO. 2006-PA-107	                                                                                               September 2007



 TABLE OF CONTENTS
            Executive Summary ......................................................................................................... i

            Introduction.......................................................................................................................1

            Objectives, Scope, and Methodology.............................................................................2

            Findings and Recommendations....................................................................................4

                I.	   FD&C’s Workforce Planning 

                      Strategy Has Not Been Effective ......................................................................5

                      a. The Strategy to Use NTE Positions to Take 

                            on Increased Workloads Has Not Worked...........................................5

                      b. FD&C Is Taking Steps to Better Use Its Staff Talent .................................7

                            Recommendations....................................................................................8

                            ISS Response .............................................................................................8

                II.	 FD&C’s Project Management Approach                                        

                      is Unstructured and Undisciplined .................................................................8

                      a. Project Design Phase......................................................................................9

                      b. Post Project Review .....................................................................................11

                            Recommendations..................................................................................11

                            ISS Response and OIG Comments.......................................................12

                III.	 Ineffective Coordination with Logistics 

                      and Contracts Has Delayed Projects .............................................................12

                            Recommendation ...................................................................................13

                            ISS Response ...........................................................................................13

                IV.	 FD&C’s Role in Space Planning is Unclear ..................................................14

                            Recommendation ...................................................................................14

                            ISS Response ...........................................................................................14

                V.	 FD&C is Not Effectively Monitoring and 

                      Assessing “FAST” Service Delivery ..............................................................15

                            Recommendations..................................................................................16

                            ISS Response and OIG Comments.......................................................16

                VI.	 FAST Contains Inaccurate Data and Does 

                      Not Provide Useful Management Reports ...................................................17

                            Recommendation ...................................................................................18

                            ISS Response ...........................................................................................18

            Conclusion .......................................................................................................................19

            Appendix: ISS Response................................................................................................20





        THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                      September 2007


 EXECUTIVE SUMMARY
                               The Library’s Facility Design and Construction Office (FD&C)
                               is responsible for planning and designing spaces in the
                               Library’s buildings (approximately 4.4 million square feet) and
                               providing interior design services. FD&C is a unit of Facility
                               Services, under the direction of Integrated Support Services.
                               This audit follows up on our FY 2002 audit of Facility Services
                               (Report No. 2001-PA-108). In that audit, we found FD&C
                               needed to improve its timeliness in delivering services and its
                               communication with customers about work requests. We also
                               found that Facility Services was not recording important
                               information needed for effective oversight and sound
                               decision-making regarding the FD&C workforce. In this audit
                               we followed up on these findings and conducted a more in-
                               depth examination of FD&C. We found that FD&C has not
                               corrected the conditions we had identified in 2002: its ability to
                               provide cost effective and timely service has been adversely
                               affected by high staff turnover, overwhelmed supervisors, and
                               unclear guidance. Supervisors are burdened with hiring and
                               performing staff functions, leaving little time for supervisory
                               responsibilities. Without top management accountability,
                               sustained leadership, adequate funding, and an effective
                               system to measure results, these long-standing problems will
                               continue to erode FD&C’s ability to provide services to its
                               customers. Our specific findings and recommendations
                               follow:

                               FD&C’s Workforce Planning Strategy Has Not Been
                               Effective ― Facility Services lacks the information to
                               effectively determine FD&C’s staffing requirements and
                               whether outsourcing some FD&C functions would be
                               advantageous. As a result, FD&C’s staff is overwhelmed,
                               projects are frequently delayed, staff turnover has been
                               rampant, and continuity of operations has been a significant
                               problem. We recommend that Facility Services collect
                               information to effectively forecast the staffing resources it
                               needs and explore procuring technical expertise (see page 5).

                               FD&C’s Project Management Approach is Unstructured and
                               Undisciplined ― FD&C lacks effective internal controls to
                               help ensure that its goals and objectives are met and resources
                               are used efficiently, economically, and effectively. At the time
                               of our fieldwork, staff were operating without written policies

                       THE LIBRARY OF CONGRESS • Office of the Inspector General                i
AUDIT REPORT NO. 2006-PA-107                                      September 2007

and procedures. As a result, project files were incomplete and
inconsistent and lacked adequate documentation. We offer
several recommendations, including placing a priority on
completing the Project Delivery Manual (see page 8).

Ineffective Coordination with Logistics and Contracts Has
Delayed Projects ― Since our last audit, FD&C has improved
its communication and coordination with its customers, the
AOC, and the Safety Services Office. However, it still needs to
improve its coordination with the Contracts Office and
Logistics Services. We recommend improved communication
and assignment of liaisons with these offices (see page 12).

FD&C’s Centralized Space Planning Role is Unclear ― It
appears to us that service units still control their assigned
space, and FD&C’s role is that of an arbitrator. A centralized
space planning authority is crucial to efficient use of space.
We recommend that the Librarian reinforce Facility Services’
centralized role in space planning and design (see page 13).

FD&C is Not Effectively Monitoring and Assessing “FAST”
Service Delivery ― Facilities Automated Service Tracking
(FAST) system service providers are not completing service
requests within the timeframes requested by their customers.
Approximately 62 percent of requests take more than two
weeks to complete. FD&C is not effectively monitoring the
FAST requests, following up on delays, and assessing overall
service delivery. Our recommendations include establishing
better controls and placing more responsibility on customers
for facilitating prompt service (see page 14).

FAST Contains Misleading Data and Does Not Provide
Useful Management Reports ― FAST service providers are
not inputting completion dates in a timely manner and FD&C
is not effectively monitoring open work requests. Moreover,
FAST lacks useful management reporting capabilities. Facility
Services management told us that the FAST system is
temporary, and will be replaced by the new CAFM system,
which is under development. We recommend that FD&C
stress to the service providers the importance of inputting the
completion date as soon as the job is done (see page 16).

ISS substantially agreed with and has already taken steps to
implement our recommendations.


 ii   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                                  September 2007


 INTRODUCTION

                               This report presents the results of our audit of the Library’s
                               Facility Design and Construction Office (FD&C), a unit of
                               Facility Services, under the direction of Integrated Support
                               Services.

                               Facility Services is responsible for maintaining and managing
                               approximately 4.4 million square feet of space, which includes
                               3.32 million square feet on Capitol Hill. FD&C is responsible
                               for planning and designing Library spaces and performing
                               interior design services, including the selection and layout of
                               furnishings and equipment. FD&C’s Facility Project Plan
                               included 65 projects1 (both planned and underway) for fiscal
                               year 2007, down from over 100 projects the previous year. In
                               addition to major projects, FD&C also receives approximately
                               750 routine service requests per year, such as moving furniture
                               and performing minor repairs. FD&C generates
                               approximately 4,500 work orders per year to address these
                               service requests and work associated with design and
                               construction projects. FD&C uses the “Facilities Automated
                               Service Tracking” (FAST) system to track activity related to
                               service requests and work orders.

                               A Memorandum of Understanding between the Library and
                               the Architect of the Capitol (AOC) requires Library
                               construction work to be coordinated with the AOC and all
                               FD&C facility projects to conform to the AOC Design Manual.
                               The AOC is responsible for the maintenance, operation,
                               development, and preservation of Library facilities within the
                               U.S. Capitol Complex.

                               The importance of workplace design is well documented.
                               Multiple studies provide ample evidence that a well-designed
                               workplace can increase staff productivity, improve
                               organizational effectiveness, reduce absenteeism, and enhance
                               the attraction and retention of a superior workforce.




                               1   A project is defined as a design involving five or more workstations.


                       THE LIBRARY OF CONGRESS • Office of the Inspector General                           1
AUDIT REPORT NO. 2006-PA-107 	                                        September 2007


 OBJECTIVES, SCOPE, AND METHODOLOGY
We performed an audit of Facility Services (including FD&C)
in FY 2002. Our report No. 2001-PA-108, found that customers
were generally satisfied with the quality of the Library’s
design and construction services even though staff shortages
had placed a burden on designers. However, timeframes for
completing services were slow and communication with
customers about work requests was infrequent. We also
found that Facility Services was not recording important
information needed for oversight of the workforce and sound
decision-making such as the staff time devoted to projects and
other activities.
In this audit, our objectives were to follow up on our previous
recommendations and determine if FD&C is:
     1.	 Providing cost effective service and adequately 

         minimizing costs and processing times to the extent 

         possible; 

     2.	 Implementing a viable facility management and 

         oversight program; 

     3.	 Establishing and maintaining effective internal controls 

         to help ensure that appropriate goals and objectives are 

         met and resources are used efficiently, economically, 

         and effectively; 

     4.	 Coordinating its work with other offices (AOC; Safety 

         Services; Office of Compliance; the Collections Access, 

         Loan and Management Division; Contracting Office; 

         and Logistics Services) to ensure efficient operations; 

         and 

     5.	 Using best industry practices.

The scope of the audit included FD&C activities for FY 2006
and the first half of FY 2007. We excluded the Copyright
Reengineering project because it had a dedicated staff and was
not generally a part of FD&C’s normal workflow.

To accomplish our objectives we interviewed individuals
involved at all levels, including FD&C supervisors and staff,
AOC supervisors, Service Unit Space Coordinators, and
representatives of the Contracts Office. We also examined and
tested documents relevant to work order requests and project
designs. In addition, we spoke with staff involved with
facilities management at the Patent and Trademark Office, the
Smithsonian Institution, the National Archives and Records


 2   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                  September 2007

                               Administration, and the Veterans Administration to compare
                               the Library’s design and construction practices with those
                               followed by other government agencies.

                               We conducted our fieldwork between December 2006 and
                               March 2007, in accordance with Government Auditing Standards
                               issued by the Comptroller General of the United States and
                               Library of Congress Regulation (LCR) 211-6, Functions,
                               Authority, and Responsibility of the Inspector General.




                       THE LIBRARY OF CONGRESS • Office of the Inspector General            3
AUDIT REPORT NO. 2006-PA-107 	                                     September 2007


 FINDINGS AND RECOMMENDATIONS
The GAO’s Standards for Internal Control in the Federal
Government states that “[o]nly when the right personnel for the
job are on board and are provided the right training, tools,
structure, incentives, and responsibilities is operational
success possible[.]” Such a situation does not exist in FD&C.
FD&C’s ability to provide cost effective and timely service has
been adversely affected by high staff turnover, overburdened
supervisors, and unclear guidance. Supervisors are burdened
with hiring and performing staff functions, leaving little time
for supervisory responsibilities such as developing written
guidance, overseeing the planning and implementation of
projects, establishing performance standards for projects and
FAST requests, and assessing the results of FD&C activity.

Since 2002, FD&C’s workload has increased, partly due to the
aging Madison Building (which is nearing 30 years of age), as
well as customers seeking more upscale office space to use as
an attraction in the recruiting process and as a retention tool.
However, because it has not been able to retain the workforce
it needs, FD&C has not kept pace with demands.
Consequently, two of the five completed projects we examined
experienced cost overruns and schedule slippage. Likewise,
the majority of FAST service requests are not completed
within a reasonable timeframe. Some delays are due to
inefficiencies with the service providers that FD&C relies on,
such as the various AOC shops and the Contracts Office.
Notwithstanding delays introduced by these external sources,
we believe FD&C can significantly improve its service.

Specific areas preventing FD&C from providing cost effective
service include:

     •	 poor workforce planning, resulting in unusually high
        staff turnover and shortages,
     •	 ineffective supervision: supervisors are too busy hiring
        new staff and doing staff functions rather than
        planning, organizing, directing, and controlling
        operations, and
     •	 poor coordination with the Library’s Contracts Office
        and Logistics Services.




 4   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                               September 2007     	

                               I.	      FD&C’s Workforce Planning
                                        Strategy Has Not Been Effective

                               Facility Services has not developed an effective workforce
                               planning strategy for FD&C. This was a shortcoming that we
                               also found during our 2002 audit.2 FD&C has been plagued by
                               an overwhelming workload and rampant staff turnover.
                               Facility Services lacks the information to effectively determine
                               (1) FD&C’s manpower needs and (2) whether outsourcing
                               some services is a viable option. In our opinion, FD&C took
                               on more work in 2006 than it could handle partly because it
                               lacked benchmarks for staff time required to successfully
                               complete projects.
                               Our 2002 report recommended that Facility Services “[u]se
                               time control reports to monitor staff efficiency and more
                               accurately account for incurred facilities costs.” Our
                               recommendation was not implemented. We believe this has
                               been a factor in the ineffective staffing model FD&C has
                               adopted. Monitoring time provides important input into the
                               development of a strategic workforce plan, which focuses on
                               developing strategies to acquire, develop, and retain a mix of
                               staff (including full- and part-time and contractors) to meet
                               manpower needs.

                                        a.	      The Strategy to Use NTE Positions to Take
                                                 on Increased Workloads Has Not Worked

                               Instead of developing an effective staffing plan, Facility
                               Services used staff hired on a not-to-exceed basis3 (NTE) to
                               supplement the full time equivalent (FTE) staff. While hiring
                               NTE designers provides additional man-hours, the non-
                               permanent nature of the position results in extremely high
                               staff turnover, and, in our opinion, is unlikely to attract the
                               most qualified candidates. This has negatively affected
                               FD&C’s operations and its ability to meet project deadlines.
                               As a result, there has been a singular lack of continuity of
                               operations in FD&C .


                               2 Our 2002 report, Facility Services: Stronger Management Controls and

                               Oversight Are Necessary to Better Serve Customers, Audit Report No. 2001-PA-
                               108, stated that Facility Services needed “a specific and explicit workforce
                               planning strategy, linked to the overall strategic plan that allows for
                               identification of current and future human capital needs.”
                               3Not-to-exceed staff are appointed on a temporary basis, with appointments
                               not to exceed a certain amount of time, usually one year.


                       THE LIBRARY OF CONGRESS • Office of the Inspector General                          5
AUDIT REPORT NO. 2006-PA-107                                                                        September 2007

Twenty-one different designers have worked in FD&C over
the past five years in the four designer positions. Twelve of
these designers were NTE positions; seven resigned after less
than three years on the job. FD&C management has been
overwhelmed filling vacant positions and actually designing
or coordinating projects rather than supervising staff. Because
more than one designer generally ends up working on a
project, the rhythm and flow of projects have been disrupted.
One service unit reported dealing with six different designers
over the course of a project. Overall, this interruption of
continuity ends up delaying project completion.

To its credit, Facility Services has provided FD&C additional
personnel resources in the
form of FTEs. According to                               FD&C Design and Project Staff 4
Facility Services, the NTE
                                   Position                      2001         Current        Planned
positions were created to
expedite the Library’s 2001        Manager                      1 FTE          1 FTE           1 FTE
ergonomic furniture
upgrade, and not intended          Supervisory Project
                                                                 None          1 FTE           1 FTE
to supplement FD&C staff           Coordinator
for other projects. We noted,
                                   Senior Project
however, that the current                                        None          1 FTE           4 FTE
                                   Coordinator
NTE staff are involved with
routine projects as well as        Supervisory Designer         1 FTE          1 FTE           1 FTE
the ergonomic furniture
upgrade. Facility Services                                                    1 FTE, 3
                                   Senior Design                                            3 FTE and 1
recently received approval                                      4 FTE           NTE,
                                   Coordinator                                               Contractor
to convert FD&C’s NTE                                                       1 Contractor
positions to full-time                                                      4 NTE (2 of    4 FTE (funding
                                   Junior Interior Designer      None
permanent except for the                                                   the 4 vacant)     approved)
junior designers.
Subsequent to our fieldwork, Facility Services received
approval to create permanent junior designer positions.

FD&C management recognized the problems inherent with
using NTE staff and has asked ISS management to procure
technical expertise using GSA’s Indefinite Delivery/Indefinite
Quantity (IDIQ) contracts. GSA has awarded several multiple
award contracts to some of the most technically qualified
Architect-Engineering Firms in the United States.

4In addition, the following five full time FD&C staff provide project support:
the Fire Protection Engineer, Construction Coordinator, Office Manager, and
two Office Automation staff.


    6   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                      September 2007

                               Management expects this to occur in summer 2007. We
                               believe that Facility Services management should have taken
                               this action much sooner. Our benchmarking with other
                               agencies found that most use an architectural design firm on
                               retainer for design work. We believe that had Facility Services
                               management employed this option rather than NTE positions,
                               FD&C supervisors would have had more time for supervision
                               rather than interviewing prospective hires and performing
                               project-related duties.

                                      b.   FD&C Is Taking Steps to Better Use Its Staff Talent

                               Although FD&C management has been hindered by Facility
                               Services’ staffing decisions, it is nevertheless taking steps to
                               improve service delivery by reorganizing the way FD&C does
                               its work, creating new positions, and more clearly assigning
                               responsibilities. We believe these are the right steps to
                               improve service.

                               Creating a Project Coordination Section, led with strong
                               leadership, and adopting a team approach is a good step to
                               improving accountability, focusing on client service needs,
                               and tailoring the skills of existing staff to necessary tasks.
                               Vesting authority and responsibility for project execution in a
                               Senior Project Coordinator has provided better focus on the
                               planning, organization, direction, and control of all project
                               activities. The concept of dedicated, “cradle-to-grave” project
                               coordinators is a best industry practice.

                               Previously, a designer was dedicated to individual projects
                               from a project’s initiation to its completion. While this system
                               clearly assigned responsibility, it did not result in the most
                               efficient use of the designers’ skills. Designers were
                               overwhelmed with duties not directly related to design. The
                               FD&C Manager’s decision to separate design from project
                               coordination provides the Senior Design Coordinators more
                               time for design. In addition, hiring Junior Interior Designers
                               to handle the FAST requests, among other duties, has
                               provided more time for the Senior Design Coordinators to
                               perform supervisory functions. We think the new division of
                               labor and team approach has resulted in more cost effective
                               use of staff talents. We also found that this has improved
                               coordination with customers and the AOC.




                       THE LIBRARY OF CONGRESS • Office of the Inspector General                 7
AUDIT REPORT NO. 2006-PA-107 	                                       September 2007

Unfortunately, although this position was filled in FY2006, the
incumbent accepted another position in the Library in May
2007 because of dissatisfaction with the support Facility
Services provided to FD&C.

Recommendations

We recommend that Facility Services management:

       1.	 Collect the information needed to effectively forecast
           the staffing resources required by FD&C, and

       2.	 Explore procuring technical expertise using GSA’s
           Indefinite Delivery/Indefinite Quantity (IDIQ)
           contracts.

ISS Response

ISS agreed with both recommendations. Management
responded that it recognized the urgent need to provide
additional resources to support FD&C’s expanded workload
due in part to the AOC design manual requirement that
OSHA requirements be included into the 100 percent design
model that the Library must follow. Facility Services
requested, in three separate congressional budget cycles (FYs
04, 05, and 06), additional resources, with very limited success.
To help FD&C eliminate its 3-year backlog of ergonomic
installations and keep up with its growing workload, ISS
stated that “[it] has provided over $2 million additional
support to Facility Services in the past four years from its own
budget by re-allocating some FTEs after ISS retirements,
redefining skill sets needed for the future, possible in other ISS
areas, while trying not to harm other essential services
provided by ISS.”

II.	      FD&C’s Project Management Approach
          is Unstructured and Undisciplined

Due to the strains caused by the staff shortages, FD&C
supervisors have not had the time to develop and implement a
viable facility management and oversight program. FD&C
lacks effective internal controls to help ensure that appropriate
goals and objectives are met and resources are used efficiently,
economically, and effectively. At the time of our fieldwork,
staff were operating without written policies and procedures.


 8     THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                      September 2007


                               As a result, project files we examined were inconsistent and
                               lacked adequate documentation for (1) project design plan, (2)
                               schedules for tasks, and the progress of projects, (3) total
                               project cost, and (4) post design evaluation. Additionally, we
                               found no evidence of supervisory review in the
                               documentation we examined. GAO’s Standards for Internal
                               Control in the Federal Government state that “[i]nternal control
                               and all transactions and other significant events need to be
                               clearly documented, and the documentation should be readily
                               available for examination.” We believe that establishing and
                               requiring standard documentation would assist FD&C in
                               delivering projects on time.

                               Due to the significant amount of time devoted to hiring new
                               staff and dealing with day-to-day complaints from customers,
                               FD&C supervisors have not had time to devote to developing
                               written guidance. Over the past two and one half years,
                               Facility Services unsuccessfully awarded two contracts to
                               develop FD&C’s written policies and procedures. Neither
                               contract resulted in a full set of policies and procedures, and
                               both were terminated. At the time of our fieldwork, the
                               project management guidance was 60 percent complete.
                               FD&C staff informed us that FD&C management has made
                               informal ad hoc policy decisions that are not always
                               announced to all staff. Consequently, new staff do not have
                               guidance in the performance of their duties, customers are
                               given varying answers to questions depending upon the
                               FD&C staff member contacted, and projects are neither
                               uniformly nor effectively documented.

                                      a.   Project Design Phase

                               FD&C’s project design files generally lacked narratives
                               providing an effective visualization of the expected project
                               outcome. Although the files included expected floor plans,
                               most had no indication that the customer had approved the
                               plans. Best industry practices indicate that an effective project
                               scope definition inevitably improves project sequencing and
                               rhythm, lessens rework, lowers overall project time and cost,
                               and increases productivity as well as the morale of the
                               workforce.

                               For the most part, FD&C management recognizes the same
                               problems we identified and is taking action. Starting with the

                       THE LIBRARY OF CONGRESS • Office of the Inspector General               9
AUDIT REPORT NO. 2006-PA-107                                                      September 2007

2007 projects, FD&C management began requiring staff to
document each phase of the project. This included asking
customers to sign off on a narrative describing the project, as
well as the design drawings. This step was intended to ensure
the client agreed with the plan and thereby lessen the chance
for changes in mid-project and complaints at the conclusion of
the project. FD&C complained that service units often want
things included in the “punch list”5 that were not in the
original design plans. We believe this problem will be
alleviated with improved pre-project planning and increased
customer involvement.

Another way to ensure the client is aware of how the design
will look is to take the client to a similar room or a vendor’s
showroom. A space-planning manager in another Library
office stated that she took her customers to a vendor’s
showroom to get design ideas. FD&C management should
adopt a similar practice. Additionally, FD&C should consider
using more moveable furniture. Presently, FD&C procures
mostly modular furniture. While this results in efficient use of
space, it also incurs procurement issues related to ordering
small attachment parts. More important, it results in costly
assembly and disassembly. According to GSA, it costs
approximately $1,300 to disassemble and then reassemble a
modular workstation. Conversely, moveable furniture can be
more easily adapted to organizational or work process
changes, and can be readily restructured with a minimum of
time, effort, and waste. Users can also reconfigure their
workspace to suit their unique work styles.

In addition to the steps to improve pre-project planning,
FD&C now provides its customers with more complete
information on the projected dates for various project
construction stages. According to customers, the improved
schedule permits them to better prepare for project tasks (such
as relocating staff during construction) and creates more
accountability for FD&C to meet its target dates or provide
explanations for delays.




5 A punch list is a list developed by the Project Coordinator of the detail and
finish work remaining after "substantial completion" of a project. Two
examples of punch list items include back-ordered items and defective items.



    10   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                     September 2007   	

                                      b.   Post Project Review

                               While effectively designing the project is essential, measuring
                               and documenting the outcome of the design efforts is equally
                               important. FD&C’s “punch list” review and the recently
                               implemented customer survey provide some useable input.
                               However, these surveys are conducted before the customer
                               has had time to evaluate if the new design meets its needs.
                               FD&C needs to conduct post-occupancy evaluations about a
                               year after occupancy. Using focus groups or surveys, FD&C
                               needs to determine if the design (1) increased the customer’s
                               productivity as well as organizational effectiveness, (2)
                               enhanced staff’s loyalty, pride, and identity with the Library,
                               and (3) enhanced the attraction and retention of a superior
                               workforce.

                               FD&C management agreed that this is important. However,
                               given FD&C’s current workload and staff resources, it does
                               not believe such an analysis is practical at this time.

                               Recommendations

                               We recommend that FD&C:

                                  1.	 Place a priority on completing the Project Delivery
                                      Manual. This may entail fitting this task in around the
                                      growing day-to-day needs of advising and supervising
                                      staff;

                                  2.	 Develop a checklist of project general parameters and
                                      requirements, functional and technical requirements,
                                      design provisions, and design objectives required for
                                      the project. This checklist should be prepared at
                                      project onset by the FD&C Senior Design Coordinator
                                      in concert with the customer;

                                  3.	 Consider taking customers to vendors’ showrooms to
                                      better visualize the design concepts;

                                  4.	 Consider using more moveable furniture; and

                                  5.	 Implement post occupancy evaluations to assess the
                                      outcome of its design efforts.




                      THE LIBRARY OF CONGRESS • Office of the Inspector General             11
AUDIT REPORT NO. 2006-PA-107 	                                      September 2007

ISS Response and OIG Comments

ISS agreed with the recommendations except for number 3.
As an alternative to taking customers to vendors’ showrooms,
ISS stated that “[v]isualization of design concepts will be
achieved by FD&C for customers through isometrics and
product cut sheets.” Furthermore, ISS replied that model
workstations congruent with best business practices have been
installed throughout the Library and may be reviewed by the
customer. We believe this is an acceptable alternative
solution.

III.	    Ineffective Coordination with Logistics
         and Contracts Has Delayed Projects

Since our last audit, FD&C has improved communication and
coordination with its customers, the AOC, and the Safety
Services Office. FD&C now involves stakeholders earlier in
the project process and meets more regularly with them. It
also meets regularly with the AOC and the Contracts Office to
coordinate its work. We believe this is due to the
reorganization and newly created Supervisory Project
Coordinator position discussed above. However, FD&C still
needs to improve its coordination with the Contracts Office
and Logistics Services.

We found delays due to procurement issues in most of the
completed projects we reviewed. FD&C is generally unsure if
the Contracts Office has issued, and if vendors have received,
purchase orders. FD&C reported instances of vendors
receiving purchase orders more than 30 days late. We also
observed purchase requisitions remaining apparently dormant
in the Contracts Office for several months. Consequently,
FD&C staff are required to take additional time to call vendors
to check if they have received purchase orders. As a result,
projects are unnecessarily delayed and FD&C staff time is not
effectively utilized. Efficient contract processing is especially
important to FD&C given that it procured approximately $2.6
million in furniture, fixtures, and services to support its
activities in FY 2006. Contracts Office management informed
us that it is more closely monitoring its workload to provide
more efficient service. Additionally, the Library’s financial
system, Momentum, now allows users to see when the
Contracts Office approves the purchase order. However, this
date may not necessarily be an indicator of when the Contracts


 12     THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                     September 2007

                               Office sends the purchase order to the vendor. We are
                               currently performing an audit of the Contracts Office, and
                               expect to issue a report dealing with this and other issues
                               before the end of FY 2007.

                               We also found coordination issues with Logistics Services.
                               FD&C staff told us that Logistics had rejected an attempted
                               delivery because there was no space for it at the Library’s
                               Landover warehouse. FD&C has used all of its storage space
                               at Landover primarily due to the purchase of $1 million of
                               ergonomic furniture.

                               Logistics management stated that at the beginning of FY 2006,
                               it asked the Contracts Office to provide 48 hours advance
                               notice for any scheduled delivery to the Landover warehouse.
                               Management confirmed that it had refused several deliveries
                               but none recently. Logistics management also told us that
                               they have delivered items to FD&C for a project only to be told
                               to take the materials back because the project site was not
                               ready or had failed a safety inspection. Recent actions by
                               FD&C to improve its project scheduling should prevent this
                               from occurring.

                               Recommendation

                               We recommend that FD&C continue working with the
                               Contracts Office and Logistics Section to improve
                               communication and coordination between the two offices.
                               Specifically, FD&C should assign a liaison to act as a channel
                               between it and the other offices, so as to avoid multiple
                               communication sources and conflicting instructions.

                               ISS Response

                               ISS agreed with the recommendation and has taken action to
                               address this finding. According to ISS, “[ad]ditional funding
                               provided by ISS enabled the Contracts Office to hire a
                               Contracting Officer dedicated to ISS contracts work which
                               improved contract delivery services to FD&C in the latter part
                               of 2007.” Additionally, in August 2007 ISS initiated a bi-
                               weekly meeting with Logistics to coordinate delivery
                               schedules.




                      THE LIBRARY OF CONGRESS • Office of the Inspector General              13
AUDIT REPORT NO. 2006-PA-107                                         September 2007

IV.    FD&C’s Role in Space Planning is Unclear

Although FD&C is responsible for designing and maintaining
Library space, it appears that individual service units still
control their assigned space. FD&C serves more as an
arbitrator and although it was successful in reaching
agreement between Library Services and the Office of Strategic
Initiatives (OSI) to transfer space, we noted another project in
which a service unit refused to give up space to accommodate
an office consolidation in another service unit. Without a
centralized space planning and allocation authority, the
Library’s use of space cannot be fully efficient. A centralized
space planning authority can take a “big-picture” view of
Library space needs and availability, and make the most
efficient and effective use of existing space.
Furthermore, because of dissatisfaction with FD&C service,
some service units have hired their own space
planners/interior designer rather than using FD&C’s services.
These individuals submit design drawings to FD&C for
approval and for review by the Safety Services Office. While
this has reduced FD&C’s workload, it has also contributed to
staff turnover in FD&C since the service units hired away two
of FD&C’s designers. Moreover, it has created problems
concerning who may access the Computer Aided Design
(CAD) drawings and the format for the design drawings.
Facility Services faces problems with this semi-decentralized
arrangement. FD&C believes that to be effective, space
management needs to be centralized. We agree.

Recommendation

We recommend that the Librarian reinforce Facility Services
centralized role in space planning and design.

ISS Response

ISS agreed with the recommendation. It noted that “[a] key
deficiency in streamlining and centralizing FD&C’s authority
in space planning and design is the decentralization of the
furniture and furnishing (F&F) budget.” ISS contends that
“[i]n addition to creating inequitable levels of fit and finish in
spaces, the decentralization of this budget create a workload
demand for procurement that cannot be planned, excessive
and uncontrollable inventory, and an indiscriminate waste of
fiscal resources, particularly at fiscal year end.”


 14   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                     September 2007   	

                               V.	    FD&C is Not Effectively Monitoring and
                                      Assessing “FAST” Service Delivery

                               The requesting, tracking, and scheduling of service requests
                               has improved since FD&C switched from its paper based
                               system to its automated FAST system. Nevertheless, FAST
                               service providers still are not completing service requests
                               within the timeframes expected by customers. Approximately
                               62 percent of requests take more than two weeks to complete.
                               Customers generally expect faster service; 32 percent ask for
                               same day service and 68 percent request completion in 5 or
                               fewer days. While customers may have unreasonable
                               expectations for same day service, service within two weeks
                               does not seem unreasonable, depending on the nature of the
                               request. For example, in one case, it took over two weeks and
                               a site visit by a junior designer to repair a faulty electrical
                               outlet. We believe this task could have been accomplished
                               very quickly and without a site visit. Although FD&C had
                               established performance goals for timely acknowledging and
                               assigning requests, and consulting with a customer, it had not
                               established goals for completing the service. FD&C
                               management is currently establishing and validating service
                               level agreements with its service providers. GAO’s Standards
                               for Internal Control in the Federal Government requires managers
                               to compare actual performance to planned or expected results
                               throughout the organization and analyze significant
                               differences. FD&C has not effectively monitored the FAST
                               requests, followed up on delays, and assessed overall service
                               delivery.

                               We found that FD&C is promptly assigning the requests for
                               service to a Junior Interior Designer and creating work orders,
                               if needed, the same day. Delays in service occur after this
                               point.

                               Two steps are necessary to improve service delivery. First,
                               FD&C needs to establish appropriate timeframes for
                               performing different types of service requests. Further, FD&C
                               should dynamically reallocate its workload on a daily basis, so
                               as to make most efficient use of its resources. FD&C should
                               adopt a “triage” model for incoming requests in order to better
                               match available resources with its workload.

                               Second, FD&C should educate its customers so that they have
                               reasonable expectations for service response. Approximately
                               one third of the routine requests for service ask for same day

                      THE LIBRARY OF CONGRESS • Office of the Inspector General             15
AUDIT REPORT NO. 2006-PA-107 	                                      September 2007

service. Expecting service providers to complete a service
request the same day may not always be possible. FD&C
needs to establish reasonable goals acceptable to both the
customer and the provider, and needs to place more
responsibility on the customer in assisting with the order
fulfillment. For example, we found a request to install
shelving delayed for over a month because FD&C was unable
to verify where to install the shelves. For routine jobs, we
believe FD&C should alert the service unit of an expected
timeframe for service (for example a particular date and a
span of time). It is the customer’s responsibility to ensure that
someone is available to show the service provider exactly
where the service is needed.

Recommendations

We recommend that FD&C:

   1.	 Establish goals for the completion of the FAST service
       requests, by type of request;

   2.	 Create a “triage” system to reorder and allocate
       resources based on its current workload and resource
       balance;

   3.	 Establish timeframes for the completion of various
       project types;

   4.	 Increase the monitoring of the FAST requests and
       investigate any request outstanding for more than the
       planned time; and

   5.	 Involve customers further in the process.

ISS Response and OIG Comments

ISS agreed with the recommendations except for creating a
“triage” system. Management stated that a “triage” system is
ill-suited for FAST requests and is “… unnecessary since
mechanisms are in place (direct communication, ad hoc field
evaluations, etc.) through entities such as Building Services
and the AOC that provide the capacity, resources, and agility
to respond to any unforeseen contingency.”




 16   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                   September 2007    	

                               Notwithstanding Building Services’ and the AOC’s flexibility
                               to respond, we believe a more formal process of reviewing and
                               prioritizing the FAST requests on a daily basis will
                               complement the mechanisms mentioned above and will better
                               ensure that more urgent or mission critical requests are
                               expeditiously completed. We reaffirm our recommendation to
                               implement a “triage” system to quickly evaluate incoming
                               requests and reallocate resources as needed.

                               VI.	   FAST Contains Inaccurate Data and Does
                                      Not Provide Useful Management Reports

                               The FAST system may incorrectly show delays because service
                               providers are not inputting project completion dates in a
                               timely manner. For example, almost one hundred work
                               orders assigned to the AOC appeared open as of January 16,
                               2007. Some of these were for work completed two months
                               earlier. Similarly, 6 of the 44 work orders we tested were
                               shown as open or had no completion date even though we
                               suspected the work had been completed given the time
                               elapsed since the work order had been placed. We also
                               observed a significant number of open work orders dating
                               from 2005 and 2004 that we suspected were closed or
                               cancelled but not updated in the FAST system.

                               Customers should be able to check the FAST system to
                               determine the status of service requests they have placed.
                               However, due to the unreliability of the system, some
                               customers have to contact FD&C directly to verify that the
                               work has been completed. This places additional time
                               burdens on FD&C staff.

                               We observed two shortcomings with the FAST system that
                               limits its value. First, FAST lacks management reporting
                               capabilities that would be useful to both FD&C and customers.
                               For example, FD&C management could not provide us with
                               the average completion time for requests, or the percentage of
                               work orders completed by the requested date. Second,
                               customers complained that the system deletes the record once
                               a work order is completed. This prevents customers from
                               conducting studies to determine the extent of work in various
                               areas and the timeliness of service. Facility Services
                               management told us that the FAST System will be replaced
                               once the new CAFM system is developed.



                      THE LIBRARY OF CONGRESS • Office of the Inspector General             17
AUDIT REPORT NO. 2006-PA-107                                      September 2007

Recommendation

We recommend that FD&C stress to the service providers the
importance of inputting the completion date as soon as the job
is completed.

ISS Response

ISS agreed with the recommendation.




 18   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                                      September 2007


 CONCLUSION

                               FD&C is taking action to increase its oversight and proactive
                               management, provide more accountability, while establishing
                               a more effective, business-like process for its operation. The
                               department’s three-year long transformation effort appears to
                               be going in the right direction, though – despite the time
                               elapsed – it is still in an early stage of implementation and its
                               long-term effectiveness has yet to be determined. The
                               experiences of successful major change management
                               initiatives in large organizations suggests that such initiatives
                               can often take at least 5 to 7 years until they are fully
                               implemented and the related cultures are transformed in a
                               sustainable manner.

                               Sustained commitment and leadership continuity is required
                               for continued progress. Current FD&C management has been
                               on board since May 2004 and has provided much needed
                               leadership continuity and expertise. The newly created
                               supervisory coordinator position created in FY 2006 is vital to
                               sustain improvements that have already been achieved,
                               support further transformation efforts, and maintain
                               operations during the transition.

                               Full implementation of the restructuring effort has been
                               hindered by many roadblocks including inadequate funding,
                               unclear guidance, and high staff turnover. Without top
                               management accountability, sustained leadership, adequate
                               funding, and an effective system to measure results, these
                               long-standing problems will continue. Facility Services needs
                               to take action to make FD&C a desirable place to work; doing
                               so should facilitate more effective recruitment and retention of
                               talented staff.

                               Finally, we commend ISS for taking prompt action to address
                               our recommendations.




                               Major Contributors to This Report:

                               Nicholas Christopher, Assistant Inspector General for Audits
                               Patrick J. Cunningham, Senior Auditor


                      THE LIBRARY OF CONGRESS • Office of the Inspector General               19
AUDIT REPORT NO. 2006-PA-107                                      September 2007


 APPENDIX: ISS RESPONSE





 20   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                            September 2007




                      THE LIBRARY OF CONGRESS • Office of the Inspector General    21

AUDIT REPORT NO. 2006-PA-107                                      September 2007




 22   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                            September 2007




                      THE LIBRARY OF CONGRESS • Office of the Inspector General    23

AUDIT REPORT NO. 2006-PA-107                                      September 2007




 24   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                            September 2007




                      THE LIBRARY OF CONGRESS • Office of the Inspector General    25

AUDIT REPORT NO. 2006-PA-107                                      September 2007




 26   THE LIBRARY OF CONGRESS • Office of the Inspector General
AUDIT REPORT NO. 2006-PA-107                                            September 2007




                      THE LIBRARY OF CONGRESS • Office of the Inspector General    27

AUDIT REPORT NO. 2006-PA-107                                      September 2007




 28   THE LIBRARY OF CONGRESS • Office of the Inspector General
